August 20, 2003

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Inspection Service Resource Allocations for Fiscal
         Year 2003 (Report Number SA-AR-03-005)

This report presents the results of our self-initiated audit of the Postal Inspection Service
Resource Allocations for Fiscal Year (FY) 2003 (Project Number 03BN002OA000).
Our objective was to determine the adequacy of the Postal Inspection Service’s
FY 2003 budgeting process.

The audit revealed that the Postal Inspection Service was not required to use a zero-
based budget process that is required by other Postal Service Headquarters units and
the Postal Inspection Service did not provide adequate justifications for budget
submissions. The audit also revealed that justifications for eight Postal Inspection
Service programs were adequate and the Postal Inspection Service tracked and
monitored variances between actual and planned expenditures.

We recommended the chief postal inspector, in consultation with the Postal Service
chief financial officer and executive vice president, develop a zero-based budget
process starting with FY 2004. We also recommended the chief postal inspector
develop guidance and provide training to enable budget officials to develop adequate
budget justifications.

Management did not agree or disagree with recommendation 1 to develop a zero-based
budget process starting with FY 2004 or recommendation 2 to develop guidance and
provide training to enable budget officials to develop adequate budget justifications.
Management stated they applied a historical based budget methodology to funding
allocations and requests with the full support and concurrence of Postal Service
management and this approach ensured operational requirements were met.
Management’s comments for recommendation 2 satisfy the intent of the
recommendation. Management stated that in FY 2003 a National Administrative
Committee was created with a mission to improve and add value to administrative
functions including training in developing budget justifications. We view the
disagreement on recommendation 1 as unresolved and plan to pursue it through the
formal audit resolution process. Management’s comments and our evaluation of these
comments are included in the report.
The Office of Inspector General (OIG) considers recommendation 1 as significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action is completed. The recommendation should
not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Michael L.
Thompson, director, Inspection Service Audits, at (703) 248-2100 or me at
(703) 248-2300.



Ronald D. Merryman
Deputy Assistant Inspector General
 for Technology/Oversight

Attachment

cc: Mary Anne Gibbons
    James J. Rowan, Jr.
    Richard J. Strasser, Jr.
    Larry C. Visos
    Susan M. Duchek
Postal Inspection Service Resource                                 SA-AR-03-005
 Allocations for Fiscal Year 2003



                                     TABLE OF CONTENTS
    Executive Summary                                                  i

    Part I

    Introduction                                                       1

      Background                                                       1
      Objective, Scope, and Methodology                                1
      Prior Audit Coverage                                             2

    Part II

    Audit Results                                                      4

      Zero-Based Budget Process Not Used                               4
      Recommendation                                                   6
      Management’s Comments                                            6
      Evaluation of Management’s Comments                              6

      Nonpersonnel Budget Justifications Were Not Adequate             9
      Recommendation                                                  10
      Management’s Comments                                           10
      Evaluation of Management’s Comments                             10

      Program Budget Justifications Were Adequate                     11

      Expenditures Were Compared to Budget Plan                       12

   Appendix A. Postal Inspection Service Fiscal Year 2003 Budget      13
               Process Timeline

    Appendix B. Percentage of Adequate Justifications for Postal      14
                Inspection Service Fiscal Year 2003 Nonpersonnel
                Budget Line Submissions

    Appendix C. Management’s Comments                                 19
Postal Inspection Service Resource                                                                    SA-AR-03-005
 Allocations for Fiscal Year 2003


                                        EXECUTIVE SUMMARY
Introduction                      This report represents the results of our self-initiated audit
                                  of Postal Inspection Service resource allocations. Our
                                  objective was to determine the adequacy of the Postal
                                  Inspection Service’s fiscal year (FY) 2003 budgeting
                                  process.

Results in Brief                  The Postal Inspection Service did not prepare a zero-based
                                  budget. Therefore, it is not known if requirements have
                                  been properly identified or developed for its $487.5 million
                                  FY 2003 budget.1

                                  The audit also revealed that justifications supporting
                                  $25.1 million of nonpersonnel budget line items totaling
                                  $36.8 million2 were not adequate. In some cases, no
                                  justifications were provided. This occurred because the
                                  Postal Inspection Service did not provide budget officials
                                  with guidance or training for developing adequate
                                  justifications.

                                  The Postal Inspection Service provided adequate
                                  justifications for $23.8 million for eight Postal Inspection
                                  Service programs such as security, equipment, and
                                  database development. In addition, we determined that the
                                  eight programs were consistent with the Postal Inspection
                                  Service’s FY 2003 Annual Performance Plan.

                                  We also found that the Postal Inspection Service’s Finance
                                  and Administrative Services group tracked and monitored
                                  variances between actual and planned expenditures for their
                                  $76.3 million nonpersonnel budget.

                                  We did not review personnel costs or staffing because this
                                  area was concurrently reviewed as part of another Office of
                                  Inspector General audit.

Summary of                        We recommended management establish a process to
Recommendations                   implement a zero-based budget process. We also
                                  recommended that management establish guidance and

1
  The budget included personnel costs of $387.4 million, nonpersonnel costs of $76.3 million, and program costs of
$23.8 million.
2
  The Postal Inspection Service’s nonpersonnel budget for FY 2003 is $76.3 million. Field offices are not responsible
for relocation costs, accident costs, rent, depreciation, and exceptional funding totaling $39.5 million. The balance
was $36.8 million.




                                                          i
Postal Inspection Service Resource                                                 SA-AR-03-005
 Allocations for Fiscal Year 2003


                              provide training to assist field and headquarters’ managers
                              in developing adequate justifications for their specific budget
                              line item requests beginning with the FY 2004 budget.

Summary of                    Management did not agree or disagree with our
Management’s                  recommendation to establish a process to implement a
Comments                      zero-based budget process beginning with FY 2004.
                              Management stated they applied a historical based budget
                              methodology to funding allocations and requests with the full
                              support and concurrence of Postal Service management
                              and this approach ensured operational requirements were
                              met.

                              Management also did not agree or disagree with our
                              recommendation to establish guidance and provide training
                              to assist field and headquarters managers in developing
                              adequate justifications for their specific budget line item
                              requests beginning with the FY 2004 budget. Management
                              said that in FY 2003 a National Administrative Committee
                              was created with a mission to continuously improve and add
                              value to the administrative functions of the Postal Inspection
                              Service and administrative specialists would be provided
                              training in developing budget justifications for their
                              respective FY 2004 division budget line items.
                              Management’s comments, in their entirety, are included in
                              Appendix C of this report.

Overall Evaluation of         Management did not agree or disagree with
Management’s                  recommendations 1 and 2. We agree that Postal Inspection
Comments                      Service management applied a historical based budget
                              methodology in preparing their budget request for FY 2003
                              and that Postal Service management accepted this
                              methodology. We do not agree, however, that this
                              approach ensured that operational requirements were met.
                              A zero-based budget process would provide a better
                              understanding of needs and requirements because it
                              requires budget preparers to review in detail their operations
                              in order to plan for the upcoming year. By considering each
                              line item activity in the budget, Postal Inspection Service
                              management would be better able to determine the effects
                              of extraordinary or nonrecurring items instead of relying on a
                              historical review of budget data.




                                                ii
Postal Inspection Service Resource                                               SA-AR-03-005
 Allocations for Fiscal Year 2003


                              We view the disagreement on recommendation 1 as
                              unresolved and plan to pursue it through the formal audit
                              resolution process.

                              Management’s comments for recommendation 2 satisfy the
                              intent of the recommendation. By creating a National
                              Administrative Committee to focus on making improvements
                              in the Postal Inspection Service’s administrative functions,
                              management has taken the initial steps to ensure that field
                              and headquarters managers will receive training and best
                              practices in developing adequate justifications for their
                              specific budget line item requests.




                                               iii
Postal Inspection Service Resource                                                                   SA-AR-03-005
 Allocations for Fiscal Year 2003


                                            INTRODUCTION
Background                        As the law enforcement and security arm of the Postal
                                  Service, the Postal Inspection Service is responsible for
                                  ensuring the integrity of the mail. The Postal Inspection
                                  Service also provides investigative, security, and preventive
                                  services, and enforces approximately 200 federal laws that
                                  protect the mail, Postal Service employees, customers, and
                                  assets. To meet its responsibilities, as of September 2002,
                                  the Postal Inspection Service maintained a staff of 4,007,
                                  which included 1,873 inspectors, 1,341 Postal Service
                                  police officers, and 793 professional and support personnel.
                                  The professional and support personnel include forensic
                                  specialists, information technology experts, and financial
                                  analysts. The Postal Inspection Service is comprised of
                                  headquarters, 18 field divisions with 114 subordinate
                                  domiciles, 4 operation support groups, and 4 forensic
                                  laboratories.

                                  Within the Postal Inspection Service, the Finance and
                                  Administrative Services group administers the operating and
                                  capital budgets of the Postal Inspection Service.

                                  According to the U.S. Postal Inspection Service Manual
                                  Section 171.31, the budget is the Postal Inspection
                                  Service’s primary operational planning and control process.
                                  The Postal Inspection Service’s fiscal year (FY) 2003
                                  operating budget was $487.5 million. The budget included
                                  personnel costs of $387.4 million, nonpersonnel costs of
                                  $76.3 million,3 and program costs of $23.8 million.4

Objective, Scope, and             Our overall objective was to determine the adequacy of the
Methodology                       Postal Inspection Service’s FY 2003 budgeting process.

                                  To accomplish the objective, we interviewed officials from
                                  Postal Service and Postal Inspection Service Headquarters.
                                  We also interviewed Postal Inspection Service budget
                                  officials at all 18 divisions, and the Memphis and
                                  South San Francisco Inspection Service Operations

3
  Nonpersonnel costs are broken into three categories: supplies and services, other expenses, and miscellaneous.
The other expenses category includes travel, training, and vehicle maintenance. The miscellaneous category
includes printing, fuel, and information technology.
4
  The FY 2003 budget included funding for eight programs. The programs included security initiatives, background
checks, equipment replacement, contract fraud analysts, security infrastructure, database development, cluster box
program, and business systems reengineering.




                                                         1
Postal Inspection Service Resource                                                                SA-AR-03-005
 Allocations for Fiscal Year 2003


                                Support Groups.5 We reviewed the Postal Inspection
                                Service’s FY 2003 budget, associated criteria, and related
                                documentation. We analyzed data related to the Postal
                                Inspection Service’s FY 2003 budget to determine the
                                adequacy of budget justifications.

                                This audit was conducted from October 2002 through
                                August 2003 in accordance with generally accepted
                                government auditing standards. We reviewed management
                                controls related to the Postal Inspection Service’s budget.
                                We reviewed data from the Inspection Service’s National
                                Consolidation Workbook. We did not assess the reliability
                                of the data from this system as part of our review. We did
                                not identify any material internal control weaknesses. We
                                discussed our conclusions and observations with
                                appropriate management officials and included their
                                comments, where appropriate.

Prior Audit Coverage            The Review of the United States Postal Inspection Service
                                Budget Process (Report Number OV-AR-00-005, dated
                                September 29, 2000), revealed that the Postal Inspection
                                Service’s management did not link budgetary resources to
                                performance-related goals and functions. In addition,
                                management did not prepare a strategic plan and annual
                                performance plan in accordance with the Government
                                Performance and Results Act of 1993. Postal Inspection
                                Service management did not issue a written request for
                                estimated operating expenses with additional instructions to
                                field divisions when planning and formulating the annual
                                administrative operating budget. Finally, management
                                controls were inadequate to ensure that Postal Inspection
                                Service budgetary resources were linked to performance-
                                related goals and functions.

                                The first two recommendations from the prior audit
                                involved staffing and were reviewed in another Office of
                                Inspector General (OIG) audit. The prior audit’s third
                                recommendation addressed preparation of an annual
                                performance plan. The deputy chief inspector stated that
                                the Postal Inspection Service would prepare an annual
                                performance plan that allocated resources based on
                                performance-related goals and functions. During our audit,

5
  The South San Francisco Postal Inspection Service Operations Support Group closed on March 31, 2003, and its
functions were transferred within the Postal Inspection Service.




                                                       2
Postal Inspection Service Resource                                                SA-AR-03-005
 Allocations for Fiscal Year 2003


                              we found that the Postal Inspection Service issued annual
                              performance plans in FYs 2002 and 2003.

                              The prior audit’s fourth recommendation addressed issuing
                              written requests and directions for estimating operating
                              expenses. The deputy chief inspector stated the Postal
                              Inspection Service would issue written requests for
                              estimated operating expenses with additional instructions to
                              field division management when planning and formulating
                              the annual administrative budget. During our audit, we
                              found that the Postal Inspection Service had subsequently
                              issued written requests with limited guidance when
                              requesting estimated operating expenses. The issue of
                              providing guidance is further addressed in this audit report.




                                                3
Postal Inspection Service Resource                                                                    SA-AR-03-005
 Allocations for Fiscal Year 2003


                                            AUDIT RESULTS
Zero-Based Budget                 The Postal Inspection Service did not use a zero-based
Process Not Used                  budget process6 to prepare its $487.5 million FY 2003
                                  budget. Instead, the budget was prepared from the top
                                  down. The Postal Inspection Service is the only Postal
                                  Service Headquarters group that does not use a zero-based
                                  approach to prepare their budget.7

                                  Postal Service Corporate Budget officials stated they used
                                  the zero-based budget process because it provided them
                                  a better understanding of needs and requirements.
                                  Zero-based budgeting requires budget preparers to review
                                  in detail their operations in order to plan for the upcoming
                                  year. By considering each line item activity in the budget,
                                  the Postal Inspection Service would be better able to
                                  determine the effects of extraordinary or nonrecurring items
                                  instead of relying on a historical review of budget data.

                                  On September 10, 2002, the Postal Service’s chief financial
                                  officer provided the Postal Inspection Service with its
                                  FY 2003 authorized budget, which totaled $487.5 million,
                                  for administrative activities and programs. The authorized
                                  budget amount was based on discussions between Postal
                                  Inspection Service management and Postal Service
                                  Finance. Included in the authorized budget was
                                  $387.4 million for salaries and benefits based on a planned
                                  complement level of 4,007 employees. We did not review
                                  personnel costs or staffing because this area was being
                                  concurrently reviewed by another OIG audit.

                                  During October 2002, the Postal Inspection Service’s
                                  Finance and Administrative Services group emailed budget
                                  workbooks to Postal Inspection Service administrative
                                  specialists at headquarters and field units. These
                                  administrative specialists and their budget managers were
                                  instructed to prepare budget requests, narrative
                                  justifications, and accounting period fund allocations for
                                  $36.8 million8 in nonpersonnel costs. Examples of

6
  Zero-based budgeting is the process of preparing an operating plan or budget that starts with no authorized funds.
In a zero-based budget, each activity to be funded must be justified every time a new budget is prepared.
7
  The Postal Inspection Service budget is included in the Postal Service’s Headquarters budget. The Postal Service
field sites do not use a zero-based budget process.
8
  The Postal Inspection Service’s nonpersonnel budget for FY 2003 is $76.3 million. Field offices are not responsible
for relocation costs, accident costs, rent, depreciation, and exceptional funding totaling $39.5 million. The balance
was $36.8 million.




                                                          4
Postal Inspection Service Resource                                                  SA-AR-03-005
 Allocations for Fiscal Year 2003



                              nonpersonnel costs included supplies, travel, training, and
                              vehicle maintenance.

                              We found that administrative specialists and budget
                              managers relied on historical data and new funding
                              requests to prepare their $36.8 million budget requests.
                              Specifically, at the beginning of the budget process, Postal
                              Inspection Service management asked headquarters and
                              field managers to submit requests for new projects or
                              expenses not currently funded, new contractual
                              commitments, and any anticipated budget line increases.

                              In addition, during the audit we found the Postal Inspection
                              Service did not finalize their budget until December 2002,
                              approximately 100 calendar days after the beginning of the
                              fiscal year. On October 7 and 17, 2002, the Postal
                              Inspection Service Finance and Administrative Services
                              group sent budget approval letters to field and headquarters
                              offices, respectively, providing total funding for each division
                              and headquarters group for FY 2003. Separate letters were
                              issued due to a reorganization of Postal Inspection Service
                              headquarters units. On October 10 and 21, 2002, divisions
                              and headquarters groups were directed to allocate their
                              funds by accounting period for each budget line for the fiscal
                              year. Appendix A shows a timeline of the Postal Inspection
                              Service’s FY 2003 budget process.

                              During our review, Postal Service Corporate Budget officials
                              contacted the Postal Inspection Service to discuss plans to
                              implement a zero-based budget in FY 2004. As of April 15,
                              2003, no formal plan had been implemented. According to
                              the same Postal Service officials, this was not done in the
                              past because the Postal Service did not have available staff
                              to work with the Postal Inspection Service in the process.
                              However, Postal Service Corporate Budget officials stated
                              as of April 14, 2003, they hired additional staff to work with
                              the Postal Inspection Service in developing a zero-based
                              budget.

                              Because the Postal Inspection Service did not prepare a
                              zero-based budget, it is not known if requirements have
                              been properly identified or developed.




                                                5
Postal Inspection Service Resource                                                  SA-AR-03-005
 Allocations for Fiscal Year 2003




Recommendation                We recommend the chief postal inspector, in consultation
                              with the chief financial officer and executive vice president:

                                     1. Establish a process to implement a zero-based
                                        budget process beginning with FY 2004.

Management’s                  Management did not agree or disagree with the
Comments                      recommendation. Management stated they applied a
                              historical based budget methodology to funding allocations
                              and requests with the full support and concurrence of Postal
                              Service management and this approach ensured
                              operational requirements were met.

                              Management also stated that the Postal Service budget
                              model being applied to the Postal Inspection Service for
                              FY 2004 is based on historical weighting and projected on-
                              board complement numbers. Management further stated
                              the Postal Inspection Service does not own the budget
                              process and any recommendation to implement a new
                              process should have been directed to the owner of the
                              process.

                              Management also stated that beginning in FY 2003,
                              the Postal Inspection Service began examining line budget
                              methodologies as part of a zero-based budget approach.
                              The Postal Inspection Service further stated in their
                              management comments that the data collected during the
                              process was misrepresented by the OIG as justification for
                              their FY 2003 budget. Their FY 2003 budget was based
                              upon historical projections and management input.
                              Management further stated that the line justification data
                              collected during the FY 2003 budget call was to identify
                              local methodologies that may be used as a basis for
                              development of a zero-based budget approach.
                              Management went on to say that the OIG evaluators took
                              the data out of context representing that it was the basis of
                              our FY 2003 budget request.

Evaluation of                 Management ‘s comments were not responsive. We agree
Management’s                  that Postal Inspection Service management applied a
Comments                      historical based budget methodology in preparing their
                              budget request for FY 2003 and that Postal Service
                              management accepted this methodology. We do not agree
                              however, that this approach ensured that operational




                                                  6
Postal Inspection Service Resource                                                           SA-AR-03-005
 Allocations for Fiscal Year 2003


                                    requirements were met. It is not known if Postal Inspection
                                    Service requirements were properly identified or developed
                                    for the FY 2003 budget. A zero-based budget process
                                    would provide a better understanding of needs and
                                    requirements because it requires budget preparers to
                                    review in detail their operations in order to plan for the
                                    upcoming year. By considering each line item activity in the
                                    budget, Postal Inspection Service management would be
                                    better able to determine the effects of extraordinary or
                                    nonrecurring items instead of relying on a historical review
                                    of budget data.

                                    Postal Service Corporate Budget officials use a zero-based
                                    budget process for all departments in their headquarters
                                    budget. The Postal Inspection Service budget is included in
                                    the Postal Service’s Headquarters’ budget.9 According to
                                    Postal Service Corporate Budget officials, a zero-based
                                    methodology was not required of the Postal Inspection
                                    Service because the Postal Service did not have available
                                    staff to work with the Postal Inspection Service in the
                                    process. As noted in our report, the Postal Service hired
                                    additional staff to work with the Postal Inspection Service to
                                    develop a zero-based budget for FY 2004. Therefore, our
                                    recommendation to the chief postal inspector in consultation
                                    with the Postal Service chief financial officer and executive
                                    vice president to establish a process to implement a zero-
                                    based budget process was appropriate.

                                    Postal Inspection Service management was incorrect in its
                                    assertion that our audit report “misrepresented” the data
                                    collected during the FY 2003 budget process as
                                    “. . . .justification for [the Postal Inspection Service’s]
                                    FY 2003 budget.” In fact, based on the Postal Inspection
                                    Service’s September 26, 2002 Management
                                    Communication and the directions included with budget
                                    workbooks, it was used as justification for the FY 2003
                                    budget. This is clearly supported by the following excerpts
                                    from the Management Communication and budget
                                    workbooks:

                                         a. The September 26, 2002, Management
                                            Communication from the Inspection Service stated:
                                            “. . . .each line budget is to be justified in writing as
9
    Postal Service field sites do not use a zero-based budget process.




                                                            7
Postal Inspection Service Resource                                                      SA-AR-03-005
 Allocations for Fiscal Year 2003


                                        part of the submission process. The justification does
                                        not have to be lengthy but it must clearly convey the
                                        rationale behind the request. We will not accept
                                        taking last year’s results and adding XX% increase as
                                        a justification method for developing line budgets. It
                                        is critical that our budget submission process includes
                                        deliberate tracking, strong analysis, and sound
                                        justification. We cannot afford organizationally to
                                        perpetuate practices that result in yearly base budget
                                        inflation that is absent of solid operational reasons.”

                                     b. In addition, directions for the budget workbooks
                                         emailed to Postal Inspection Service administrative
                                         specialists at headquarters and field units stated:
                                         . . . .“the justification for funding should be thorough,
                                        complete and sufficient in detail to support the
                                        requested amount. You can type as much
                                        information as you would like. A separate narrative is
                                        to be prepared for each line. Narrative justifications
                                        based on historical trend will not be accepted and
                                        your request for the item(s) will not be approved.”

                              We view the disagreement on recommendation 1 as
                              unresolved and plan to pursue it through the formal audit
                              resolution process.




                                                    8
Postal Inspection Service Resource                                                                       SA-AR-03-005
 Allocations for Fiscal Year 2003




Nonpersonnel Budget The Postal Inspection Service did not adequately justify
Justifications Were $25.1 million of line item submissions for budgeted
Not Adequate        nonpersonnel expenses of $36.8 million.10 This
                    represented 61 percent of the 518 budget line submissions
                    for the $36.8 million allocated as nonpersonnel expense in
                    the FY 2003 budget.

                                   Postal Inspection Service Management Communication,
                                   dated September 26, 2002, required written justifications for
                                   each budget line item request as part of the budget
                                   submission process. It stated that justifications need not be
                                   lengthy, but must clearly convey the rationale for the
                                   request. However, neither the Management
                                   Communication nor the U.S. Postal Inspection Service
                                   Manual provided any guidance on developing these
                                   justifications.

                                   We reviewed and analyzed 518 justifications for Postal
                                   Inspection Service budget line submissions totaling
                                   $36.8 million for FY 2003. We developed the following
                                   questions to determine whether the justifications were
                                   adequate. We considered the justification to be adequate if
                                   we could answer yes to any three of the four questions:

                                                     •    Did a narrative exist?
                                                     •    Was the narrative specific?
                                                     •    Did the narrative justify the need for the
                                                          request?
                                                     •    Was the justification quantified?

                                   Our analysis showed that approximately 61 percent of the
                                   justifications prepared for the $36.8 million in budget line
                                   submissions were not adequate. We found that the
                                   justifications ranged from two divisions that provided over
                                   92 percent adequate justifications to five headquarters
                                   groups that did not provide any justifications. Appendix B
                                   depicts the level of justifications for the Postal Inspection
                                   Service’s field operations east, west, and south; operations
                                   support groups; and headquarters reviewed by the OIG.

10
   The Postal Inspection Service’s nonpersonnel budget for FY 2003 is $76.3 million. We did not review justifications
for budget submissions of $6.8 million for relocation costs, $365 thousand for accident costs, $9 million for rent, and
$21.3 million for depreciation; field offices are not responsible for these amounts. We also did not review $2.1 million
designated for exceptional funding items. Items that warrant exceptional funding must be of a unique occurrence,
need, or nonrepetitive nature. The balance after deducting the above amounts was $36.8 million.




                                                           9
Postal Inspection Service Resource                                                                      SA-AR-03-005
 Allocations for Fiscal Year 2003



                                  We also found, through interviews with administrative
                                  specialists, that training was not provided on how to prepare
                                  adequate justifications. While we did not specifically ask
                                  about training during our interviews, administrative
                                  specialists11 at eight divisions addressed it as a need.

Recommendation                    We recommend the chief postal inspector:

                                       2. Establish guidance and provide training to assist field
                                          and headquarters managers in developing adequate
                                          justifications for their specific budget line item
                                          requests beginning with the FY 2004 budget.

Management’s                      Management did not agree or disagree with the
Comments                          recommendation. Management said that in FY 2003 a
                                  National Administrative Committee was created with a
                                  mission to continuously improve and add value to the
                                  administrative functions of the Postal Inspection Service.
                                  In addition, at the August 2003 National Administrative
                                  Committee meeting administrative specialists would be
                                  provided training in developing budget justifications for their
                                  respective FY 2004 division budget line items. When the
                                  FY 2004 division budgets are reviewed, management will
                                  provide feedback to the divisions on their justifications and
                                  guidance to those divisions whose justifications have
                                  opportunities for improvement.

Evaluation of                     Management’s comments are responsive to the intent of our
Management’s                      recommendation. By creating a National Administrative
Comments                          Committee to focus on making improvements in the Postal
                                  Inspection Service’s administrative functions, management
                                  has taken the initial steps to ensure that field and
                                  headquarters managers will receive training and best
                                  practices in developing adequate justifications for their
                                  specific budget line item requests. Management’s actions
                                  taken or planned should correct the issues identified in the
                                  report.




11
  Administrative specialists assisted with the coordination and preparation of their division’s nonpersonnel budget.
This included obtaining supporting justifications for budget line item submissions.




                                                          10
Postal Inspection Service Resource                                                                SA-AR-03-005
 Allocations for Fiscal Year 2003




Program Budget                   In September 2002, the Postal Service’s chief financial
Justifications Were              officer authorized and released $23.8 million in funding to
Adequate                         the Postal Inspection Service for eight programs. 12 These
                                 programs were for such areas as security, equipment, and
                                 database development.

                                 We reviewed the justifications for the eight programs and
                                 applied the same criteria we used for our review of the
                                 nonpersonnel justifications. We considered the justification
                                 to be adequate if we could answer yes to any three of the
                                 four questions:

                                                  •   Did a narrative exist?
                                                  •   Was the narrative specific?
                                                  •   Did the narrative justify the need for the
                                                      request?
                                                  •   Was the justification quantified?

                                 We found that the Postal Inspection Service provided
                                 adequate justifications for each program proposal. In
                                 addition, we determined the eight programs were consistent
                                 with the Postal Inspection Service’s FY 2003 Annual
                                 Performance Plan.13




12
   The programs included security initiatives, background checks, equipment replacement, contract fraud analysts,
security infrastructure, database development, cluster box program, and business systems reengineering.
13
   The FY 2003 Annual Performance Plan sets forth the operational and management challenge objectives, which will
receive national attention during the fiscal year.




                                                       11
Postal Inspection Service Resource                                                 SA-AR-03-005
 Allocations for Fiscal Year 2003




Expenditures Were             During our audit, we noted that Postal Inspection Service
Compared to Budget            headquarters tracked and monitored FY 2003 variances
Plan                          between actual and planned expenditures for their
                              $76.3 million nonpersonnel budget. Specifically, the
                              Finance and Administrative Services group developed
                              reports for use by managers at division and headquarters
                              levels to identify variances. The reports showed variances
                              by accounting period, year to date, and the same period last
                              year. In addition, budget lines were color-coded to highlight
                              variances.

                              At the end of each accounting period, reports were sent
                              electronically from the Finance and Administrative Services
                              group to budget managers for review. During our audit,
                              these reports became available on the Postal Inspection
                              Service intranet for managers to review.

                              Variances between actual and planned expenditures were
                              discussed during quarterly meetings attended by deputy
                              chief inspectors and division managers. In addition, when
                              necessary, Finance and Administrative Services personnel
                              contacted inspectors in charge both at headquarters and in
                              the field individually for more detailed information regarding
                              expenditure variances.

                              We believe these efforts by the Finance and Administrative
                              Services group improved Postal Inspection Service
                              accountability for nonpersonnel expenditures and helped to
                              ensure that budget plans were followed.




                                                12
Postal Inspection Service Resource                                     SA-AR-03-005
 Allocations for Fiscal Year 2003


                                                APPENDIX A
                                        POSTAL INSPECTION SERVICE
                                     FY 2003 BUDGET PROCESS TIMELINE




                                                    13
Postal Inspection Service Resource                                                                              SA-AR-03-005
 Allocations for Fiscal Year 2003


                                     APPENDIX B
                    PERCENTAGE OF ADEQUATE JUSTIFICATIONS FOR
       POSTAL INSPECTION SERVICE FY 2003 NONPERSONNEL BUDGET LINE SUBMISSIONS

                                                 Postal Inspection Service Divisions

          Southwest
                                                               38
           Southeast
                                                                                                                   94
     Rocky Mountain
                                                                                                 75
          Gulf Coast
                                     14
              Florida
                                            20
   Western Allegheny
                                                                     43
         Washington
                                     13
        Philadelphia
                                                                                      62
           Northeast
                                                                          47
        North Jersey
                                                         33
           New York
                                                                    41
         Mid-Atlantic
                                                                                                                  93
           Northwest
                                      15
  Southern California
                                                              36
       San Francisco
                                                                                                      79
             Midwest
                                                                                57
              Detroit
                                                                                57
            Chicago
                                                                                       64
                        0   10             20       30         40          50    60         70        80   90           100


                                               Percentage of Adequate Justifications
                                      Postal Inspection Service Operations Support Groups




                                                                     14
Postal Inspection Service Resource                                                                        SA-AR-03-005
 Allocations for Fiscal Year 2003




           South San Francisco
                                                                33


                         Newark
                                                                           50


                       Memphis
                                                      21


                        Chicago
                                                                                     62


                  Bala Cynwyd
                                                                                                    86

                                     0   10      20        30        40   50    60        70   80    90   100

                                              Percentage of Adequate Justifications




                                         Postal Inspection Service Headquarters Offices




                                                                     15
Postal Inspection Service Resource                                                                               SA-AR-03-005
 Allocations for Fiscal Year 2003



                      Strategic Planning                     11
                        Project Services                     11
                       Office of Counsel                                           33
                         Chief Inspector               8
                         Internal Affairs                                                        45
                Information Technology                 8
         Human Resources Performance                                               33
                                Group 6         0
                                Group 5                                                                          64
                                Group 4         0
                                Group 3                                                          44
                                Group 2                                                                50
                                Group 1         0
       Finance & Administrative Services                                23
           Forensic & Technical Services                                                37
               Headquarters Operations                             17
          Congressional & Public Affairs        0
            Career Development Division                       14
               Investigations & Security        0
              Administrative Operations                       13
                                            0           10         20         30            40        50    60        70

                                                    Percentage of Adequate Justifications




                                                                        16
Postal Inspection Service Resource                                      SA-AR-03-005
 Allocations for Fiscal Year 2003




                              Budget Line Requests

                            Number of Budget    Number of   Percentage of
                               Requests         Adequate      Adequate
                               Submitted        Requests      Requests

       Divisions

Chicago                              14             9           64.3
Detroit                              14             8           57.1
Florida                              15             3           20.0
Gulf Coast                           14             2           14.3
Mid-Atlantic                         14            13           92.9
Midwest                              14             8           57.1
New York                             17             7           41.2
North Jersey                         18             6           33.3
Northeast                            17             8           47.1
Northwest                            13             2           15.4
Philadelphia                         14             9           64.3
Rocky Mountain                       12             9           75.0
San Francisco                        14            11           78.6
Southeast                            16            15           93.8
Southern California                  14             5           35.7
Southwest                            13             5           38.5
Washington                           15             2           13.3
Western Allegheny                    14             6           42.9

  Postal Inspection
 Service Operations
  Support Groups

Bala Cynwyd                          15            13           86.7
Chicago                              13             8           61.5
Memphis                              14             3           21.4
Newark                               10             5           50.0
South San Francisco                  9              3           33.3




                                           17
Postal Inspection Service Resource                                             SA-AR-03-005
 Allocations for Fiscal Year 2003




                                  Budget Line Requests

                                Number of Budget       Number of   Percentage of
                                   Requests            Adequate      Adequate
                                   Submitted           Requests      Requests

Headquarters Offices

Administrative
Operations                                   8             1           12.5
Investigations and
Security                                     8             0            0.0
Career Development
Division                                    14             2           14.3
Congressional and
Public Affairs                              11             0            0.0
Headquarters
Operations                                   6             1           16.7
Forensic and
Technical Services                          16             6           37.5
Finance and
Adminstrative Services                      13            3            23.1
Group 1                                     8             0             0.0
Group 2                                     6             3            50.0
Group 3                                     9             4            44.4
Group 4                                     8             0             0.0
Group 5                                     11            7            63.6
Group 6                                     6             0             0.0
Human Resources
Performance                                  9             3           33.3
Information
Technology                                  12             1            8.3
Internal Affairs                            11             5           45.5
Chief Inspector                             13             1            7.7
Office of Counsel                            9             3           33.3
Project Services                            9              1           11.1
Strategic Planning                          9              1           11.1
Total:                                     519            202         38.914


14
     Percentage of adequate requests      38.9%
     Percentage of inadequate requests    61.1%
                                         100.0%




                                                  18
Postal Inspection Service Resource                    SA-AR-03-005
 Allocations for Fiscal Year 2003


                  APPENDIX C. MANAGEMENT’S COMMENTS




                                     19
Postal Inspection Service Resource        SA-AR-03-005
 Allocations for Fiscal Year 2003




                                     20
